<html>
<title> - The Situation of Roma: MEP Soraya Post Discusses</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





115th Congress                                                        Printed for the use of the
1st Session                                     Commission on Security and Cooperation in Europe
__________________________________________________________________________________________________
 
                  The Situation of Roma: MEP Soraya Post Discusses

                        Europe's Largest Ethnic Minority
                        
                        
                        
                        




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                                
                                        November 7, 2017 





                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                  Washington: 2018






                       Commission on Security and Cooperation in Europe
                              234 Ford House Office Building
                                    Washington, DC 20515
                                      202-225-1901
                                 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfdcccdcdaffd2ded6d391d7d0caccda91d8d0c9">[email&#160;protected]</a>
                                 http://www.csce.gov
                                  @HelsinkiComm

                         Legislative Branch Commissioners
                                       

              HOUSE                                        SENATE
CHRISTOPHER H. SMITH, New Jersey                  ROGER WICKER, Mississippi,
          Co-Chairman                               Chairman
ALCEE L. HASTINGS, Florida                       BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                      JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                        CORY GARDNER, Colorado
STEVE COHEN, Tennessee                           MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                   JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                         THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                        TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                            SHELDON WHITEHOUSE, Rhode Island
                        
     
          
          
                          Executive Branch Commissioners

          
          
                              DEPARTMENT OF STATE
                              DEPARTMENT OF DEFENSE
                              DEPARTMENT OF COMMERCE
          
          

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




The Situation of Roma: MEP Soraya Post Discusses

        Europe's Largest Ethnic Minority
                    _______

              November 7, 2017


                                                                       Page
                              PARTICIPANTS

    Erika B. Schlager, Counsel for International Law, Commission for 
Security and Cooperation in Europe .................................       1

    Dr. Mischa E. Thompson, Policy Advisor, Commission for Security and 
Cooperation in Europe ...............................................     10

    Dr. Ethel Brooks, Chair, Board of Directors, European Roma Rights 
Centre; Member of the United States Holocaust Memorial Museum Council .    2

Soraya Post, Member of the European Parliament, Sweden ................    3

    Alfiaz Vaiya, Coordinator, European Parliament Anti-Racism and 
Diversity Intergroup ..................................................    9






The Situation of Roma: MEP Soraya Post Discusses
        Europe's Largest Ethnic Minority



                              ----------                              

                            November 7, 2017
                            
                            
  Commission on Security and Cooperation in Europe
                    Washington, DC



    The briefing was held at 10:16 a.m. in Room 215, Senate Visitors 
Center, Washington, DC, Erika B. Schlager, Counsel for International 
Law, Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Erika B. Schlager, Counsel for International 
Law, Commission for Security and Cooperation in Europe; Dr. Mischa E. 
Thompson, Policy Advisor, Commission for Security and Cooperation in 
Europe; Dr. Ethel Brooks, Chair, Board of Directors, European Roma 
Rights Centre; Member of the United States Holocaust Memorial Museum 
Council; Soraya Post, Member of the European Parliament, Sweden; and 
Alfiaz Vaiya, Coordinator, European Parliament Anti-Racism and 
Diversity Intergroup.

    Ms. Schlager. Good morning, everyone. Thank you for your patience 
in waiting for us this morning. I think one of the challenges in having 
such an esteemed guest is that she does have an incredibly busy 
schedule while she's in Washington and New York. And we are very 
honored and pleased to have a Member of the European parliament, Soraya 
Post, here with us today.
    My name is Erika Schlager. I'm Counsel for International Law at the 
Helsinki Commission. And on behalf of the Commission, I would like to 
welcome everyone here today. As some of you may know, the Helsinki 
Commission has a very, very long track record of engagement on issues 
relating to the human rights of Roma. We have been particularly active 
in addressing mob violence against Roma, ending sterilization without 
informed consent of Romani women, addressing the denial of citizenship 
and the loss of identity documents for Roma, particularly in the 
context of the breakup of Czechoslovakia, the Soviet Union, and 
Yugoslavia, encouraging remembrance of and teaching about the genocide 
of Roma, and countering prejudice and discrimination against Roma in 
the context of our larger efforts to address racism and antisemitism.
    And I'm very happy to be here today with my colleague, Dr. Mischa 
Thompson, who takes the lead on these issues for the Helsinki 
Commission; and also welcome Alfiaz Vaiya, who is the coordinator of 
the European Parliament Anti-Racism and Diversity Intergroup. I will 
turn first to my colleague, Dr. Ethel Brooks, who is the chair of the 
board of directors of the European Roma Rights Centre, the leading 
transnational advocacy group on Romani human rights issues, and an 
associate professor at Rutgers University. In 2016, she was appointed 
by the President of the United States to serve as a member of the 
United States Holocaust Memorial Museum Council. And she has also 
served as a public member on U.S. delegations to several OSCE meetings.
    So, Ethel, thank you very much for coming down here today, and I 
invite Ethel to introduce MEP Post. Thank you.
    Dr. Brooks. Thank you so much, Erika. And thank you, Mischa, and 
the Helsinki Commission for bringing us all together today. It's really 
a pleasure and an honor for me to be here and for me to be able to 
introduce my fellow Romani feminist, my sister, and my role model, MEP 
Soraya Post. Early in my career when I was giving a lecture on the 
possibilities of Romani feminism as a young Romani scholar, an audience 
participant stood up--a professor of gender studies--and said: But 
that's impossible. You cannot be a feminist and a Romani woman. Those 
are contradictory positions.
    In fact, given the situation of Roma, of women, and particularly of 
Romani women across Europe and across the globe, it's impossible not to 
be a Romani feminist. Everyday forms of anti-Romani racism are common 
in all realms of life, and are just a tiny part of the much larger, 
violent, and much more powerful forces that Romani people and women 
face constantly and consistently.
    Romani women face multiple intersectional forms of discrimination 
and violence including, in fact, assumptions about the impossibility of 
Romani feminism. Romani people face racism, forced evictions, racially 
motivated attacks, police abuse, segregation, inhuman and degrading 
treatment, housing discrimination, expulsions and marginalization, 
educational segregation and the denial of access to schools, of unfair 
detention, hate speech, hate crimes, attacks by far-right groups, among 
other forms of violence, with which at this point we should all be all 
too familiar.
    These structural forms of anti-Romani racism, of anti-Gypsyism, 
must be combatted at every level and in every area. For this reason, 
and for many others, it is my honor and my pleasure to introduce Member 
of European Parliament, Mrs. Soraya Post, to you today. Romani woman, 
activist, politician, feminist--she is at once an example of the 
possibilities of Romani feminism and an active agent in the fight 
against anti-Gypsyism in all forms and in all of its manifestations.
    MEP Soraya Post was the first Romani woman in Swedish history to be 
chosen as a candidate for a political party, and the European 
Parliament's first member to be elected on the basis of a feminist 
platform, representing the Swedish political party Feminist Initiative. 
She is the first member of the European Parliament from an 
ideologically antiracist and feminist party--and through that, her 
election slogan during the campaign was, quote, ``Out with the racists, 
in with the feminists,'' which I love.
    Ms. Post is a Romani rights activist focusing on the empowerment of 
Romani women and the self-determination of Romani society. Before being 
elected MEP, she worked as a human rights strategist for the County 
Council of West Sweden. She founded the International Roma Women's 
Network, and also is a founder of the European Roma and Traveler's 
Forum. She is active as an advisor to government bodies in Sweden, in 
the Council of Europe, and the European Commission, and has been a 
member of government inquiries on human rights, discrimination and 
Romani rights.
    She was also a member of the very important Swedish Commission 
Against Anti-Gypsyism, which produced the report on anti-Gypsyism in 
Sweden. And one of her priorities in the European Parliament has been 
to work against anti-Gypsyism. She initiated the work on the resolution 
for International Roma Day, anti-Gypsyism in Europe, and the EU 
recognition of the 2nd of August to be recognized as Roma Holocaust 
Memorial Day, to commemorate the Roma genocide in World War II.
    Most recently--as recently as two weeks ago--Soraya Post ushered in 
a resolution in the European Parliament based on the report on 
fundamental rights aspects in Roma integration in the EU, fighting 
anti-Gypsyism, which was adopted by an overwhelming majority in the 
European Parliament. The explanatory statement of the resolution 
begins, quote, ``We demand nothing more, but also nothing less, for the 
Roma people than we demand for majority society,'' end quote.
    The resolution is historic in that it addresses the structural, 
far-reaching aspects, practices, and manifestations of anti-Gypsyism, 
and maps out ways to overcome the discrimination and human rights abuse 
that Roma have faced across Europe in every aspect of life and across 
every geography. In the midst of this critical work, MEP Post is also 
working to promote human rights and social justice across the board on 
a number of issues, in solidarity with marginalized communities, from 
standing up in the European Parliament against the Rohingya genocide to 
pushing to redress violence against women as part of a revamped 
security policy.
    Welcome, MEP Soraya Post. Miri phen, my sister, and, as I said, my 
role model for what it means to be a Romani feminist.
    Ms. Post. OK, please let me start by expressing my gratitude to the 
U.S. Helsinki Commission for organizing this briefing today, and in 
particularly Mischa and Erika, who I have known for many years now, 
after meeting in Warsaw. You remember, yes?
    My name is Soraya Post, and I am a Roma woman from Sweden. I have 
been a human rights activist for about 40 years. And I never thought 
that I was going to be a politician, but when I was asked and nominated 
I thought, yeah, why not? I will end up doing the lobbying in the 
corridors. I will take the place where decisions are taken. So I did 
it. And I'm very happy for that, because it is an arena where we have 
an impact and can really make a change. I didn't believe it before--I 
had some kind of prejudice towards politicians. But I really changed my 
mind, because I can see--and also, towards the European Union and 
European Parliament I had prejudice. But I must say, there are 
hardworking politicians, with goals, with political ideals, which I 
admire very strongly. So I find myself at the right place. I am blessed 
by doing what I am doing now.
    In 2014, when I got elected to represent the Swedish Feminist 
Initiative, I took on the mission of safeguarding the principle of 
democracy, of spreading and defending fundamental human rights, gender 
equality, and the respect of basic values of the European Union's 
treaties. And I am a member of the European Parliament, where I have 
joined the political group of the Progressive Alliance of Socialists 
and Democrats. The committee I am a member of is the Civil Liberties, 
Justice, and Home Affairs Committee. I'm a Ranking Member of the Human 
Rights Subcommittee and a substitute on the Foreign Affairs Committee. 
And the Committee on Civil Liberties does include EU member States. And 
the Foreign Affairs Subcommittee for Human Rights is everything outside 
of the EU.
    One of my political goals is to place the situation of Roma on the 
political agenda, and to make really tangible change at last. It is not 
easy, though, because we have a lot of challenges in Europe today 
because of so many wars and conflicts and peoples fleeing wars. And it 
is a huge challenge for Europe, how to deal with migration and 
refugees. So the EU is at a very critical point at the moment. And the 
destiny of 12 million Roma is not the priority. And this goes 
absolutely against the values of the EU. But this neglect is not a new 
phenomenon. It has been going on for, like, 800 years in Europe. And 
the result is that now in 2017, the situation of the Roma people is not 
better than in third world countries.
    And therefore, following my mission to fight against injustice and 
inequality, I have recently initiated a draft of my European Parliament 
report on the fundamental rights aspects in Roma integration in the EU, 
fighting anti-Gypsyism. I just wanted to say, the first resolution was 
2015, because all the years fighting as an activist was the majority 
and the politician to recognize anti-Gypsyism as a special form of 
racism towards Roma. But they never wanted--they always spoke about the 
social aspects, and never spoke about the real root cause. So for me, 
as a politician, it was most important that we use the right 
terminology. So we go to the root cause of the problem before we start 
to find solutions.
    And the first resolution recognized anti-Gypsyism as a special form 
of racism towards Roma. And in the same resolution, the recognition of 
a memorial day from the Holocaust. It was a great start, which gave me 
a strong platform to go further in the work on Roma now. And the 
report, mentioned also by Ethel, was adopted in the parliament on the 
25th of October, with a huge 75 percent majority. So it was a great 
success. And I was so proud of my fellow colleagues that they really 
took the responsibility to put their feet down and decide we have to do 
something about it.
    So anti-Gypsyism defines a specific form of racism directed against 
the Roma, which manifests itself among others through individual and 
institutional neglect, discrimination, inequalities, stigmatization, 
hate speech and hate crime, social exclusion, et cetera, et cetera, 
which are the effects, the outcome of the root cause. So after long and 
hard work, the term was recognized. And anti-Gypsyism is very much 
present at our society at every level. We had never been good enough 
for the European societies to accept us as equal citizens, with 
guaranteed equal access to our fundamental human rights. So it was very 
important for me to raise up this, for people to understand and to 
recognize.
    And the result of the deprivation of our human rights is very clear 
to see in all the reports produced by a fundamental rights agency and 
by NGOs. I will just mention a few, like 80 percent of Roma are at the 
risk of poverty, compared to 17 percent of the general population. 
Every third Roma household lives without tap water. Sixty-three percent 
of young Roma age 16 to 24 are not employed, nor are they in education 
or training. School segregation is a shameful reality across Europe. 
These are all different faces of anti-Gypsyism, which sometimes can be 
unconscious as well. And until we manage to remedy anti-Gypsyism, the 
root cause of the unacceptable situation that Roma are still facing in 
Europe, we will not see improvement in the lives of the Roma people, 
even if the European Commission initiates good programs and provides 
funds to realize them.
    So my question was, is there a need to improve this situation? Yes, 
of course. And is there a way to improve the situation? Yes. And is 
there a way out of mistrust from both sides? Yes, of course there is. 
If there is a will, we can make it.
    My report, which has been the first European Parliament report 
addressing anti-Gypsyism at the wide scale, lists 12 pages of demands 
and recommendations from which I will only mention a few of them. So it 
calls for an end to the paternalistic treatment of Roma, an important 
step from regarding them as mere clients, as well as to ensure equal 
access and enjoyment of fundamental rights. This is key, since the 
institutions that are supposed to protect citizens from acts of 
discrimination and violence, in practice all too often fail so to 
extent the same level of protect to Roma as to non-Roma, precisely 
because of anti-Gypsyism.
    So we demand the setting up of a truth and reconciliation 
commission at member States and at EU level to acknowledge the 
persecution, exclusion, and disownment of Roma throughout the 
centuries, to document these in an official white paper and to make the 
history of Roma part of the curricula in schools, which is crucial for 
creating trust. We call on the court of auditors to shape the 
performance of EU programs as they seem to fail to reach out to the 
most disadvantaged. We ask for clear condemnation and sanctioning of 
anti-Roma hate speech in the member States, and also in the house of 
the Parliament.
    We call for compensation for Roma women having been subjected to 
forced sterilization. We call on member States to investigate without 
delay unlawful removals of Roma children from their parents, and to 
prevent such cases. We call for desegregation measures to ensure equal 
treatment of Roma in the field of education, employment, health and 
housing, and fundamental rights trainings for duty bearers. And 
finally, we call for the continuation of an improved EU framework for 
national Roma integration strategies after 2020. It's just a few--I 
have 12 pages of demands.
    And the report calls for the end of the paternalistic treatment of 
Roma, an important step from regarding them as mere clients, as well as 
to ensure equal access and enjoyment of fundamental rights. Yes, this 
is a key, since the institutions that are supposed to protect to 
protect citizens from acts of discrimination and violence, in practice 
all too often fail to extend the same level of protection to Roma as to 
non-Roma, because of the anti-Gypsyism.
    So 12 million Roma are considered second-class citizens in Europe 
today. And 800 years of human rights deprivation and harassment is 
enough. We cannot still remain in the middle ages. So this is what my 
work is about, and I'm happy for questions. And the report--I brought 
one extra with me to give to you, Ethel. Of course, you can find it 
online. But it is quite historical, and I really enjoy to give it to 
you, because I know you're an activist also. We have met several times, 
and I think we share the frustration that we in a civilized modern 
society still have to speak about these kind of issues.
    Thank you very much for inviting me here. And thank you, Mischa and 
Erika. And also, I would like to thank Alfiaz. He's on my left, but 
he's sometimes my right hand, you know? [Laughter.] And he is really 
doing a great job when it comes to Roma issues in the Anti-racism and 
Diversity Intergroup. And not being a Roma himself, you really do 
understand the situation. It's not that easy, but I think you have got 
it really into your heart, and mind. This is very important, that the 
heart and the brain cooperate, you know? So, and it does. So thank you 
very much. And I'm also very pleased to present my husband. This is his 
first time traveling with me, and I'm very proud of that because I have 
been traveling around the world always alone. And I would like to--my 
first visit to Washington I wanted strongly to share with him, despite 
he was really ill before he had to leave. But he did it. So thank you.
    Ms. Schlager. Thank you for coming. I'm going to make a couple of 
observations, if I may, on some of the points that you've raised. I do 
have a couple questions of my own, but before I ask my own questions 
I'll open it up to others here who may have some questions.
    I really appreciated the emphasis you have made in the work that 
you're doing on looking at the core human rights component, the 
discrimination against Roma, as a cause of social and economic 
inequality and social and economic problems. Certainly in the Helsinki 
process I remember back to earlier years when the discussion really was 
framed only about social and economic issues and really not looking at 
civil and political rights at all, not looking at discrimination. I 
think that's still something that we have to work to address, to 
counter racism against Roma, whatever phrase we're using to describe 
it. So I thank you for that.
    I also really appreciated your assertion that when there's a will 
there's a way, because I think working on Romani issues it is often the 
case that political leaders that we work with at the national level or 
the local level sort of throw their hands up and say, ``These are 
really hard problems. What can we do?'' And I think that is the perfect 
answer to that kind of reaction. And then I would invite you maybe to 
say a couple more words about the Swedish report that was done looking 
at the history of Roma in Sweden, which I gather may be--correct me on 
this--but may be something of a model for what you're talking about 
doing at the Europe-wide level in terms of truth and reconciliation.
    If I could ask you maybe to speak to that question, and then I'll 
ask others for questions if you have them. Thank you.
    Ms. Post. Thank you. Yes, I don't remember which year, but some 
years ago I was in the committee on Roma rights. And at the same time, 
I was in another government committee on human rights in Sweden. I 
travel a lot to Stockholm, and it was hard work. But during the time--
and those also human rights strategies, I got to the knowledge of the 
different rights articles--articles of rights, the different 
conventions. And I knew about the mistrust, the Roma mistrust against 
the majority and the majority distrust towards the Roma. And so we 
discussed and discussed. And I always highlighted the phenomenon of 
anti-Gypsyism. But it was not on the agenda because, as you said, it 
was always about social issues.
    After a while, anyhow, I managed to convince the rest of the board 
that there has to be a chapter in our report about anti-Gypsyism. And 
when we were finalizing that act, I raised a question--what can we do 
towards this anti-Gypsyism? We need to create trust between the two 
parties. And so we started a discussion. And we invited one minister 
from Canada--I don't remember the name--because they had a truth 
commission when it comes to their First Nations. We got inspiration 
from that, and also from South Africa, of course, because I think that 
is what is needed, because so many people don't know about the history. 
So that was one of our recommendations in that report, that we should 
have a truth commission.
    Then it was at the table at the governmental level and ended up at 
the finance department, the whole report. So we had to wait some couple 
of years. And then finally they agreed on, OK, we can have like a wide 
look which covers 100 years of Swedish history, from 1900 to the year 
2000. So we started, and what I did go through was laws, how 
authorities, public services, judges--what kind of impact and how did 
they look at Roma, and what kind of tools, and what happened to the 
Roma in Sweden during this time.
    And the first, I just would like to say, is between 1914 and 1954, 
the borders were closed for Roma. No Roma from Europe could enter 
Sweden, which means that during the Second World War and during the 
Holocaust, not one single Roma could enter or flee to Sweden, because 
they were not welcome. And also, the Roma who were in Sweden couldn't 
go abroad, because then they couldn't come back. But as a matter of 
fact, two girls managed to enter, to flee from the concentration camps, 
with the white buses. And they thought they were two Jewish girls. But 
they managed to enter. And they grew up and got married and lived their 
lives in Sweden.
    Then 1923, also, a law said that we are going to make the life for 
Roma so bad so that they will make a choice to leave the country by 
themselves. And then there were laws from 1930s until 1974, practices 
forced sterilization. My mother was one of the victims. When she was 
pregnant for a third time, in the seventh month of pregnancy, they made 
a forced abortion and forced sterilization. She was 22 at the time. It 
was 1958, 1959. The last forced sterilization towards a Roma woman was 
1974 in Sweden. Until 1965, Roma were not allowed to go in school in 
Sweden. And they were not allowed to be settled. They could stay at one 
place at most three weeks, and they had to register at--let's say, the 
local police office, and had to stamp in a book. And after three weeks, 
if they didn't move, it was a reason to put them in jail. So they had 
to move all the time.
    Oh, there are so many things. And the churches on Sunday--if there 
was a farmer--let's say a farmer who hosted Roma on their ground, they 
were named and shamed in the church, that farmer. So there was 
punishment to treat Roma as human. So--and this is all recognized and 
written in this white book, which was released--what was it, 2013 or 
2014, I believe. And I didn't believe in it from the beginning because 
this--it wasn't what I wanted. I wanted a truth commission. And I 
didn't want only an excuse. I wanted an excuse from the State, or from 
the parliament, but I also wanted an action plan. I don't need an 
excuse. I don't need an apology. I just wait on an action plan.
    So I was critical. But I was there at the opening and the crown 
princes of Sweden were there, attending to this. It was nice for the 
audience. And because at the same moment a journalist found out that 
Roma were registered by police in Skara, in the southern part of 
Sweden. Like, 5,000 Roma were registered, like a family tree. I was one 
of them, and my husband, my children, and my grandchildren. And even 
people who are dead, people born in the 18th centuries--1800-something 
were also registered. So it was really together a family tree, which is 
totally forbidden in Sweden, to have registration on ethnic ground.
    So I lost my--I have to say--my positive feelings because I thought 
also during so many years I gave out most personal experience of my own 
life, of my mother's life, and how it was just to get people to 
understand and to get it, why is the situation as it is today. But then 
I was so disappointed. So when the journalist called me late in the 
evening, can I speak with you, because tomorrow they will drop a bomb 
about this. Can I send some journalists to you and take pictures? Yes, 
but what is it? Yes, your name is on that. And I started to cry--all 
this work for nothing. And what about this white book?
    Anyhow, after some while I went very strong on media and condemning 
what Sweden was doing, which is like a role model for an open country. 
So I was very critical. I met with the minister of justice, the 
minister of integration and the police, everybody, together with some 
other Roma complaining and demanding an investigation of this. And 
there was a kind of investigation, but they didn't want to recognize 
that this was an ethnic registration. But then the justice ombudsman or 
the justice counselor decided to give compensation of, like, 500 euro 
to each one of them.
    And I said, this is another offending towards us, because this 
register will last forever. The names of us will be put in an archive 
for professors or others to look for. And I fear, because of the 
political situation across Europe, including Sweden, is turning too 
much to the right, even to the extremes, and I don't know in which 
hands this will come to. So civil right defenders helped some people 
and got it to trial. And then they raised the amount of compensation 
to, like, 3,000 euro. And that's where we are today. But all who were 
registered, about 500,000 of them, were children, will get this 
compensation.
    Yes, the white book did amazing things, because it gave a kind of 
trust and it did empower the Roma NGOs, the civil society, it did. But 
it was so sad that this with the police register happened at the same 
time, almost the same time, because all the work was, like, destroyed. 
But we are still fighting. And I must say that the minister of 
integration at the time, who is a very good friend of mine, left the 
politics. He is a diplomat in Jordan now. He really stood up for our 
cause, because he did understand and he saw by his own eyes that what 
we had been telling was no lie. It was documented in the church books, 
in the archives, everywhere, about the harassment and violations 
towards the Roma, and what kind of politics it was.
    But I still believe that a white book--and this book is also spread 
out to schools, so the young people can in fact read about it. And I 
think it is important to create trust, and to have people understand--
in a way, to kill the stereotype picture, this given understanding of 
why are Roma at the level they are at the moment. So that's why I want 
to have a truth commission. And I also think it's not--it's fair if 
people recognize and wash away the dirt before they try to go ahead. I 
mean, if there is a basket with apples and there is one rotten apple in 
the bottom, all the fresh apples will get destroyed. So this is the way 
we have to do it also in Europe.
    Ms. Schlager. Thank you.
    Ms. Post. It was a long answer, but I thought I had to say all 
this. [Laughs.]
    Ms. Schlager. I think it says a great deal about the larger 
context. And I really appreciate the work that you have done on that 
report and for sharing that with everyone here. I think we have time 
for a couple of questions before we have a hard stop at 11:00.
    Questioner. I've got actually a few questions. But let me start out 
with, you mentioned----
    Ms. Schlager. I'm sorry, can you say who you are?
    Questioner. Yes, I'm Nina Kraut. I'm a domestic and international 
human rights lawyer in D.C., and my son is Roma, from Romania.
     I'm interested--you mentioned that the EU was very concerned with 
refugees, migrants, and so on. I'm kind of interested, is there any 
separation that the EU in general or in particular countries, how 
they're treating Roma in relation to the migrant and refugee 
population, or are they lumping Roma with them and dealing with them 
sort of as a big group? Or have they sort of put Roma to the side, and 
ignored them while they deal with the refugee, migrant situation? 
That's one of my questions.
    Ms. Post. Yes. I would quickly answer to that question. Absolutely, 
the Roma is put on the side. It's no priority at all. It's really put 
on side.
    Questioner. And they're not mixed with----
    Ms. Post. No, not mixed. No, not mixed. No, Roma are put on the 
side again.
    Mr. Vaiya. Maybe I can just--to kind of show that in practice, in 
our common European asylum system, of course the Roma living within the 
EU are, of course, treated differently to asylum seekers and refugees. 
I mean, they're treated as European Union citizens. But if you're 
looking in migration policy, the European Union has listed some 
countries as safe countries. And they tend to be the western Balkans 
and Turkey, so where the majority of the Roma population comes from. 
And the reasoning behind listing these countries as safe countries of 
origin is to prevent Roma from those countries coming to Europe. I 
mean, amongst other minorities but mainly the Roma minorities in the 
western Balkans and Turkey.
    So we see this discrimination within our common European asylum 
system in terms of asylum and refugee policy. And I think within Europe 
itself, when we're seeing about the treatment we provide for the newly 
arrived asylum seekers and refugees, it's probably treatment that we 
provide to the Roma communities is probably at a much less standard and 
a lesser level. Especially in the eastern EU member States, we seem to 
have to--one example MEP Soraya Post gave yesterday was that you have--
in a farm, you have the cows and the hens----
    Ms. Post. Cow stables.
    Mr. Vaiya. In the cow stables. In Romania, for example, they've 
actually put Roma--and they've taken the cows out to put the Roma into 
the cow stables. I mean, just to give you the indication in the kind of 
climate we're living. In Eastern Europe it's particularly bad, but also 
in Western Europe. I mean, make no mistake, Turkey--oh, not Turkey--
France, Italy, are at the forefront of racial segregation when it comes 
to Roma and to other minorities. I think the key is to also frame it as 
all particular minorities are facing severe problems, but the Roma are 
probably facing the most severe at the moment.
    Ms. Post. Yes, and I just wanted to add, like during the Balkans 
War, a lot of Roma had to flee. And still, they are stateless in Italy, 
for example. And today, Germany, for example, are sending back Roma who 
have been under--[inaudible]--it's, like, in 20 years--25. Young Roma 
who were born in Germany are transferred back by force to Kosovo. They 
don't know the language. They have no relatives, nothing--nothing! So 
no doubt, of course, they are treated very bad. And also among the 
refugees from, like, Syria, there are differences in the camp between 
the Roma and the non-Roma refugees also.
    Ms. Schlager. I'd like to turn to Ethel again and ask her if she 
has any last thoughts before I give the microphone to Mischa for 
concluding comments.
    Dr. Brooks. I really want to thank MEP Soraya Post for the work 
that you've been doing and for your comments today and for kind of 
framing it, especially around the events in Sweden and the white paper 
and what that means for all of us. But, you know, even here in the 
U.S., my home state of New Hampshire, it was 1979 when you had the last 
expulsion of Roma from my home state, where there's a relatively large 
Romani community in the north. And we have this entire history of anti-
Romani racism, of anti-Gypsyism, across Europe and across the world. 
And we need to really recommit to that fight, and to think about the 
current political moment as one that's particularly difficult for Roma 
and non-Roma alike.
    You know, thinking about various elections that have happened from 
Orban to Czech Republic, to Germany with the Alternative fur 
Deutschland, to Brexit, right? Many of them have run on an anti-Roma 
platforms. And so we're in a really treacherous political moment. And 
Romani citizens across the world have really--we've known this for 
decades now, for centuries now. But really thinking about what that's 
going to mean in terms of bringing everyone together.
    So the question that you asked about kind of refugees and Roma, 
building upon what my colleagues have said--one of the things that's 
happened is that even in this moment, right now, there's an attempt to 
kind of separate Romani issues from refugee issues. We really actually 
have to keep Roma at the center of a lot of this because these are 12 
million people, right? I mean, we number 12 million. And at the same 
time, it's important to build these coalitions and to think about how 
we can come up with political models that really bring people together 
as opposed to kind of leave people aside and leave people behind.
    Dr. Thompson. And with that, I would actually like to thank you for 
joining us today. I'm Dr. Mischa Thompson with the Helsinki Commission. 
And we have been putting on a number of briefings and events that are 
focused on increasing diversity on both sides of the Atlantic, that 
focus on all 57 countries that are part of the OSCE, in part because we 
really see this as being key to the stability of the region. And so the 
information that you heard today is specifically talking about what the 
history and experience has been for Roma people, but really with this 
idea that there's a larger vision of how our societies can actually be 
diverse and work.
    For those of you who might have noticed the poster in the hallway, 
it is actually from a political participation initiative that the OSCE 
led with young Roma. And I think it's just a great example of the young 
people that are going to be the leaders in our generation from across 
Europe as well. And this is something that the Commission is happy to 
continue to support. And I think we've been doing this now for close to 
two decades.
    With that, I would like to close and just thank you all for being 
here.
    [Whereupon, at 10:59 a.m., the briefing ended.]
 




  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
